HHS/OIG, Audit -"Graduate Medical Education for Dental Residents Claimed by John
Dempsey Hospital for Fiscal Years 2000 Through 2002,"(A-04-04-06010)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Graduate Medical Education for Dental
Residents Claimed by John Dempsey Hospital for Fiscal Years 2000 Through 2002," (A-04-04-06010)
November 14, 2005
Complete
Text of Report is available in PDF format (293 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether John Dempsey Hospital included the appropriate number
of dental residents in its full-time equivalent (FTE) counts when computing Medicare graduate
medical education payments for fiscal years 2000 through 2002.  The Hospital appropriately
included dental residents in its FTE counts used to compute fiscal years 2000 through 2002
graduate medical education payments.  The dental FTE counts were correct, and the Hospitals
controls over the accumulation and computation of dental FTEs appeared to be adequate.  Therefore,
we are not making any recommendations to the Hospital.